<html>
<title> - NIGERIA AT A CROSSROADS: THE UPCOMING ELECTIONS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


               NIGERIA AT A CROSSROADS: THE UPCOMING ELECTIONS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 13, 2018

                               __________

                           Serial No. 115-174

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                    or http://http://www.govinfo.gov

                                
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
33-670PDF                   WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e6819689a6859395928e838a96c885898bc8">[email&#160;protected]</a>  
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania<greek-l>   TULSI GABBARD, Hawaii
RON DeSANTIS, Florida [until 9/10/   JOAQUIN CASTRO, Texas
    18] deg.                         ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah
VACANT

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                               ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Tibor P. Nagy, Jr., Assistant Secretary, Bureau of 
  African Affairs, U.S. Department of State......................     4
Mr. Ramsey Day, Senior Deputy Assistant Administrator, Bureau for 
  Africa, U.S. Agency for International Development..............    13

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Tibor P. Nagy, Jr.: Prepared statement.............     7
Mr. Ramsey Day: Prepared statement...............................    15

                                APPENDIX

Hearing notice...................................................    34
Hearing minutes..................................................    35
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Material submitted for the record...............    36

 
            NIGERIA AT A CROSSROADS: THE UPCOMING ELECTIONS

                              ----------                              


                      THURSDAY, DECEMBER 13, 2018

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. And good 
afternoon to everyone.
    Let me, first of all, thank our very distinguished 
witnesses, Ambassador Nagy and Ramsey Day, for doing double 
duty 2 days straight. You were there yesterday doing what I 
thought was a tremendous job on the whole of Africa and today 
with a very specific focus on Nigeria. So thank you, above all, 
for your leadership but also for spending a considerable amount 
of time with the full committee and now the subcommittee. So 
thank you.
    The reason why we have called you back is to focus on 
Nigeria, obviously. And let me say how we do believe that the 
upcoming election is an inflection point. February 19th could 
be a great day, and we are hoping that it will be, but there 
are still some unanswered questions, and perhaps you could 
provide some insights to those questions.
    Nigeria is so large and robust that, as the saying goes, as 
Nigeria goes, so goes Africa. Having been there so many times, 
I believe that is true. They are wonderful, wonderful people. 
There is a great deal of faith there, both Muslim and 
Christian. But there are also some problems brought by a 
minority number of people that continues to plague the large 
masses of people who suffer from those problems.
    Its economic and political leadership in sub-Saharan 
Africa, like I said, is extremely important. A stable and 
prosperous Nigeria contributes to stable and prosperous 
neighbors. Conversely, an unstable Nigeria wracked by poverty 
and violence does not contribute to the well-being of its own 
citizens nor of its neighbors but could lead to a 
destabilization.
    Nigeria today is clearly at a crossroads. We are seeing 
continuing violence along ethnic and religious lines, 
exacerbated by economic, social, and political tensions 
coinciding with this upcoming major election. The incumbent, 
President Buhari, is seeking a second consecutive term, but, in 
a way, it is his third overall if you count the fact that he 
served as head of state from 1983 to 1985 following a military 
coup which installed him.
    President Buhari won election in 2015 in part because he 
promised to end Nigeria's endemic corruption and defeat the 
terror group Boko Haram. Since then, however, he has, frankly, 
disappointed. Boko Haram has been somewhat contained, and it 
still remains a threat, though, in terms of actual violence, 
the total deaths attributable to Boko Haram now is surpassed by 
clashes instigated in large part by well-armed Fulani 
extremists, which is often labeled the herder-farmer violence.
    In the first half of 2018, per the International Crisis 
Group, over 1,300 Nigerians have been killed in this conflict 
in Nigeria's Middle Belt. It is a horrible loss of life. Though 
the greatest number of victims in this particular conflict are 
Christian farmers, other groups in the country have suffered, 
including Nigeria's Shia Muslims in the state of Kaduna, who 
were targeted by government forces in 2015 in what is known as 
the Zaria massacre.
    Igbo, who predominantly come from the south and who still 
remember the brutal war for Biafran independence nearly half a 
century ago, are also feeling alienation, particularly after a 
call in 2017 by a radical group for Igbo to be cleansed from 
northern Nigeria and forced to return to their traditional 
homeland in the south.
    I think many others are very concerned about the apparent 
inability, perhaps even reluctance, of the Nigerian Federal 
Government under President Buhari to stop the violence or even, 
at times, to unequivocally condemn the attacks. This concern is 
exacerbated by the fact that, in any election, politicians seek 
to maximize the support of their base, and, in this particular 
case, it is President Buhari's ethnic and religious base which 
is contributing to much of the tension.
    Thus, it is critically important that political leaders 
such as President Buhari, religious leaders such as the Sultan 
of Sokoto, and institutions such as the cattlemen's 
association, Miyetti Allah, all of whom have influence among 
the Fulani, unequivocally condemn the attacks and use their 
power and influence to promote peace and reconciliation.
    In that regard, there have been a number of proposals aimed 
at promoting peace, which should be commended. As president of 
the Senate, Dr. Saraki, who is in the audience today--and 
welcome; thank you for being here--is himself a Muslim leader 
who sought to create the Religious Equity Commission, which 
aims at promoting peace among different religious groups.
    On one of my trips I made to Nigeria, I met with Archbishop 
Kaigama, the archbishop of Jos, which was the center of much of 
the conflict and where many of the churches were firebombed. We 
met with survivors from those churches. Archbishop Kaigama 
worked closely with the imam who was his counterpart in 
humanitarian and peace-building projects. And I can tell you, 
the respect and admiration for each other was actually awe-
inspiring. They both said nothing but superlatives and how they 
wanted to work together for peace in the Jos area.
    Thus, there are a number of hopeful initiatives in Nigeria 
which can be built upon. And I am looking forward to hearing 
from our two very distinguished witnesses today about what our 
Government is doing to promote peace and stability in Nigeria 
and what we are doing to help ensure a free and fair election 
followed by, depending on the outcome, a peaceful transition of 
power.
    And let me also say how we are all looking forward to 
insights you could provide to this subcommittee fresh on the 
heels of the framework that was announced this morning, which I 
hope you will spend some time conveying your impressions of it 
and where it will lead in terms of U.S. policy vis-a-vis the 
subcontinent.
    I would like to now yield to my good friend and colleague, 
Karen Bass.
    Ms. Bass. Thank you, Mr. Chairman, for this critical and 
once again timely hearing.
    And I want to thank our witnesses. Long time no see. You 
are here for a second day, and we definitely appreciate you 
taking the time to be here again. You know that your presence 
here is important because it does send a message that the 
United States remains committed to engaging across the African 
continent.
    We all know that Africa is a region of strategic importance 
and diplomatic relevance. The U.S.-Nigeria relationship is one 
of the most important in Africa, given Nigeria's size and 
political and economic role in the region.
    Nigeria will hold Presidential elections on February 16th 
and gubernatorial and legislative elections just a few weeks 
later. These elections are highly anticipated and also expected 
to be highly contested. This has led some analysts to argue 
that the elections could lead to fragmentation of the party, 
defections to other parties, or even violence.
    While concerns of violence have grown, positive signs have 
emerged. Just yesterday, 70--70, wow--Presidential candidates, 
including the main opposition candidate, pledged to hold a 
peaceful vote. While this hearing is focused on the election, 
it would be useful for you to provide us an update on broader 
issues affecting the country, such as security concerns, 
including the ongoing conflict with Boko Haram and the Niger 
Delta militants.
    Nigerian security forces have been accused of serious human 
rights abuses. The State Department's 2017 human rights report 
documents allegations by multiple sources of extrajudicial and 
arbitrary killings as well as torture, periodically, in 
detention facilities, including sexual exploitation and abuse, 
use of children by some security elements, looting and 
destruction of property. I am very interested in knowing how we 
are holding them accountable.
    On the economic front, I would be curious to know if 
Nigeria has diversified its AGOA exports beyond petroleum. 
Given that Nigeria is one of Africa's largest consumer markets, 
are we doing anything to help facilitate opportunities for 
American business?
    Returning to the topic of this hearing, some may recall 
that the 2015 elections were also very competitive and were 
viewed as a critical test for the country's leaders, security 
forces, and people. They were widely held as historic and as 
demonstrating Nigeria's commitment to democratic principles. My 
hope is that the country will have another peaceful election so 
that they can continue to address the economic and security 
challenges facing the country.
    Thank you, and I yield back.
    Mr. Smith. Thank you very much, Ms. Bass.
    Let me introduce, first, the Honorable Tibor Nagy, Jr., the 
Assistant Secretary in the Bureau of African Affairs at the 
U.S. Department of State.
    Ambassador Nagy has served over 30 years, 20 of which were 
spent in Africa as the U.S. Ambassador to Ethiopia, the United 
States Ambassador to Guinea, and was Deputy Chief of Mission in 
Nigeria, Cameroon, and Togo. Ambassador Nagy has also won 
awards for his management of the United States Embassy in 
Lagos, Nigeria, during political and economic crises.
    Following his retirement from the Foreign Service, 
Ambassador Nagy served as vice provost for international 
affairs at Texas Tech University, where he lectured on Africa, 
foreign policy, international development, and U.S. diplomacy.
    Ambassador Nagy arrived in the U.S. as a political refugee 
from Hungary. He received his B.A. from Texas Tech University 
and MSA from George Washington University. He has been married 
to his wife for 47 years, and the couple has three adult 
children--the first triplets born in independent Zimbabwe.
    We welcome you back again. I am not sure what you are doing 
tomorrow, but perhaps you want to come back again tomorrow as 
well.
    We will then hear from Mr. Ramsey Day, who serves as Deputy 
Assistant Administrator for the Africa Bureau at USAID.
    Prior to joining USAID in January 2018, Mr. Day was the 
senior director for the Center for Global Impact at the 
International Republican Institute. Mr. Day has held numerous 
positions within the international development and foreign 
policy communities, both in the U.S. and various overseas 
posts.
    He served as country representative for USAID in Montenegro 
and at the USAID headquarters in Washington, DC, within the 
Legislative and Public Affairs Bureau and as Chief of Public 
Liaison, where he led the Agency's public outreach efforts. He 
was also Chief of Staff and Senior Advisor for USAID Europe in 
the Eurasia Bureau, advising the Assistant Administrator and 
other officials on development policy, communications, and 
legislative issues.
    Mr. Day holds a B.A. from the University of Mississippi and 
a master's in public administration focusing on international 
global affairs from the Harvard Kennedy School of Government.
    Thank you both for being here.
    And, Ambassador Nagy, the floor is yours.

   STATEMENT OF THE HONORABLE TIBOR P. NAGY, JR., ASSISTANT 
 SECRETARY, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Nagy. Thank you, Mr. Chairman. With your 
permission, I have submitted a longer version of my remarks for 
the record, and I will read the abbreviated version.
    Mr. Smith. Without objection.
    Ambassador Nagy. Thank you very much, sir.
    Chairman Smith, Ranking Member Bass, thank you for the 
opportunity to testify today on the upcoming elections in 
Nigeria. I am also pleased to be joined by my USAID colleague 
Ramsey Day.
    The Department of State views Nigeria's February 2019 
national elections as a critical test which could have 
significant consequences for the democratic trajectory of not 
only Nigeria but the entire continent.
    The 2015 elections, although by no means perfect, was a 
step forward, resulting in Nigeria's first-ever democratic 
transfer of power to a nonincumbent party.
    In advance of the 2019 elections, the United States does 
not support any candidate, only a free, fair, transparent, and 
peaceful democratic process that reflects the will of the 
Nigerian people.
    Through diplomacy, robust public engagement with youth and 
civil society, and democracy and governance programs, we are 
helping Nigeria strengthen its democratic institutions and 
processes.
    The U.S. Government has developed a strategy with three 
main objectives: One, support of free and fair electoral 
process, including technical assistance to Nigeria's election 
institutions, civil society, and political parties, as well as 
U.S. Government monitoring of the election around the country.
    Two, prevent and mitigate electoral violence, including 
conflict monitoring, peace-building programs, and peace 
messaging.
    And, three, support civil and political engagement, 
including Nigerian election observings and vote tabulation, 
social media campaigns to engage youth, get-out-the-vote 
campaigns, voter education, and efforts to counter 
disinformation.
    To advance our strategy, we have high-level diplomatic 
engagement from Washington as well as officials based in 
Nigeria. Earlier this year, President Trump welcomed President 
Buhari to the White House and conveyed our expectations for a 
credible election. And two Secretaries of State, USAID 
Administrator Green, and many others have traveled to Nigeria 
or met with senior Nigerian officials to underscore our 
commitment as well.
    The State Department also hosted the Nigerian Independent 
National Electoral Commission, or INEC, chairman in late 
October to observe U.S. preparation for midterm elections and 
discussed challenges surrounding Nigeria's elections. During 
this visit, INEC Chairman Yakubu observed early voting in 
Maryland and met with congressional staff, U.S. electoral 
experts, and U.S. Government officials, to include USAID 
Administrator Green and Under Secretary for Political Affairs 
Hale.
    I recently returned from Nigeria as part of my first trip 
back to the continent, and it was great to be back where I 
served as Charge d'Affaires in 2016 and Deputy Chief of Mission 
from 1993 to 1995 and convey our expectations and concerns for 
the elections in person. I met with leadership from the two 
main political parties, INEC Chairman Yakubu, civil society 
organizations, delivering public messages on the elections with 
key stakeholders.
    That is just a summary of our Washington-focused diplomatic 
engagement on these elections. Our Ambassador and the mission 
in Nigeria are working to advance our goals every day.
    My colleague from USAID will tell you more about USAID 
programs in support of our three objectives.
    And I assure you, the U.S. Government will remain intensely 
focused on the Nigerian elections in the coming months. I know 
many of you are watching the elections closely, and we share 
many of your concerns.
    We are monitoring and messaging to mitigate a few areas of 
risk that could jeopardize a fair process. Examples include: 
Potential attacks on the legitimacy of INEC and the electoral 
process for political gain; intimidation by security forces; 
attacks on election institutions or violence toward voters, 
observers, or electoral officials; an inability of internally 
displaced persons or persons with disabilities to vote; voter 
suppression; armed gangs for voter intimidation and other 
drivers of electoral violence; and widespread vote buying.
    On November 18, the start of official campaigning, our 
mission in Abuja released a statement with 25 like-minded 
missions to express our desire to see free, fair, transparent, 
peaceful elections. We will be watching closely for instigators 
of violence or those attempting to undermine the democratic 
process.
    I can tell you from my experience that I fear there will be 
some violence, as has been the case with previous elections. 
But I only anticipate localized violence, not nationwide 
conflict.
    We are already seeing increased tension as the election 
approaches, as politicians turn to identity politics to improve 
their popularity, with potentially serious consequences for 
national unity. Nigeria has weathered such tensions before, but 
the U.S. Government takes the risk of any loss of life 
extremely seriously.
    While in Nigeria, I asked officials from both major parties 
to sign pledges that their candidates would conduct peaceful 
campaigns, and both major candidates have now signed such a 
peace pledge.
    In assessing potential hotspots for violence, we look at 
places that are historically volatile around elections, such as 
Rivers and Borno states. We look at states that are currently 
tense, especially if state-level politics are contentious, like 
those in Benue, Plateau, as well as those in high-stakes 
locations with large populations, such as Kano. We regularly 
engage with civil society organizations in these hotspots and 
support their peace-building efforts.
    USAID programs and our public diplomacy campaigns also 
support peace campaigns across the country, such as 
#VoteNotFight. Through our YALI network Nigeria campaign, 
Nigerians made over 10,000 pledges to boost voter 
participation, reject violence, and vote with integrity.
    As I said in a speech in Nigeria, only the Nigerian people 
can determine lasting solutions and a path forward toward peace 
and stability. 2019 indeed will be a significant year for 
Nigeria. It will be 20 years since the country returned to 
democratic rule. And this election's youngest voters have never 
known a Nigeria without democracy. The upcoming elections 
provide Nigerians an opportunity to shape their country and 
solidify its place as a democratic leader in Africa.
    Thank you very much.
    [The prepared statement of Ambassador Nagy follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you very much, Mr. Ambassador.
    Mr. Day?

     STATEMENT OF MR. RAMSEY DAY, SENIOR DEPUTY ASSISTANT 
ADMINISTRATOR, BUREAU FOR AFRICA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Mr. Day. Thank you, Mr. Chairman.
    Chairman Smith, Ranking Member Bass, and distinguished 
members of the subcommittee, thank you for the opportunity to 
testify today regarding the upcoming elections in Nigeria.
    I also want to thank my State Department colleague and 
friend, Assistant Secretary Tibor Nagy, for his excellent 
description of our concerns and challenges in supporting 
Nigeria's electoral process.
    USAID is deeply committed to supporting free, fair, 
transparent, and peaceful elections in Nigeria. We know that 
Nigeria's success in achieving sustained, broad-based 
advancements in economic and social development for its people 
can only be achieved if good governance is a daily reality for 
all Nigerians.
    Since the 2015 election, our support has provided 
continuity in assisting stakeholders with gubernatorial off-
cycle elections and in the lead-up preparations to the 2019 
general elections. Our programmatic efforts have been in 
partnership with the U.K.'s Department for International 
Development, or DFID, in addition to regular coordination with 
civil society groups as well as multilateral and bilateral 
donors.
    USAID's programs align with the three objectives that 
Assistant Secretary Nagy has laid out, that the election be 
credible, peaceful, and inclusive.
    First, we assist Nigeria's Independent National Electoral 
Commission, or INEC, to institutionalize key reforms that 
ensure a more credible and accountable electoral process. USAID 
continues to work with its partners to support INEC through 
training both resident electoral commissioners on alternative 
dispute resolution mechanisms and judges who will adjudicate 
any suits brought after the elections.
    Second, as Assistant Secretary Nagy has also indicated, we 
don't expect large-scale nationwide violence, though history 
does tell us there will likely be some localized conflict, 
particularly in areas that are already suffering from chronic 
instability. We continue to work with local organizations, 
international development partners, and, of course, our 
Nigerian counterparts to encourage peaceful participation and 
tolerance.
    And to mitigate the risk of violence, USAID has included 
violence prevention efforts into all of our programs 
nationwide. One example, of course, is the Vote Not Fight 
campaign, already referenced, whose peace ambassador is a 
leading Nigerian performance artist. Another campaign is the 
Stop Violence Against Women in Elections, which works with 
local civil society organizations.
    In addition, USAID supports INEC by engaging civil society 
organization in each geopolitical zone to do live conflict 
mapping. And we will share this information with INEC.
    Third, USAID programs strengthen Nigerian civil society's 
capacity to monitor the elections. Local partners are preparing 
to field over 3,000 domestic observers for the 2019 electoral 
process. These observers are trained in conducting parallel 
vote tabulations, or PVTs, using a systematic methodology that 
independently measures official voting results. When PVTs 
confirm official election results, they can increase confidence 
in the electoral process.
    Our programs also work with Nigerian major political 
parties to become more representative and responsive to their 
citizens and to increase their oversight of government 
programs.
    USAID is also funding an international election observation 
mission to provide impartial observation of the electoral 
process, enhance the credibility of the elections, and to 
support the peaceful transition of power. In addition, this 
mission will highlight the need for inclusivity so that women, 
youth, persons with disabilities, internally displaced persons, 
and other marginalized groups have full access to participate 
in the electoral process.
    And as you have heard me say, USAID's goal is to end the 
need for foreign assistance. Administrator Green has emphasized 
that it is our core belief that each country must lead its own 
development journey. And we are focused on ending the need for 
foreign assistance not because we wish to retreat from our 
friends but because but we believe in them.
    USAID is committed to encouraging peaceful elections. The 
2015 election was historic, as it marked for the first time in 
Nigeria's history that there was a peaceful transition of power 
to a nonincumbent party, an illustration of the country's 
commitment to democracy. Our interest is and always will be in 
the integrity of the electoral process and that it accurately 
reflects the will of the Nigerian people.
    So thank you, and I look forward to your questions.
    [The prepared statement of Mr. Day follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you very much, Mr. Day.
    Let me begin by asking--I know that, in July, the U.K. and 
USAID signed an agreement, an MOU, or added to the MOU, to 
increase the amount of money, I think it is $60 million over 6 
years that we anticipate; $34 million since 2014.
    And I am wondering if you could maybe break out even 
further how that money is being used. You have given us, I 
think, a little taste of that, both of you. But, specifically, 
is it going into ballot security, ensuring that the integrity 
of the process is protected?
    And, secondly, let me ask you, if I could, about the 
clergy, Christian, and the Muslim imams and the other leaders. 
Are they being mobilized to send those same messages about, to 
prevent and mitigate electoral violence, the whole idea of vote 
and shun any kind of violent attacks?
    I mean, if there is a crescendo, I would think such words 
and actions by the two major faith groups of people there, it 
could have, I think, a very good, calming effect. And I know 
you have thought of that, so if you could speak to that.
    And the election monitors. How many people are we talking 
about? Are they coming from Europe? Are they coming from the 
EU? Are they coming from here too? You know, total deployment 
anticipation? Where will they go? Or is that to be decided as 
we get closer?
    I know, because I chaired the Organization for Security and 
Cooperation in Europe Parliamentary Assembly, that election 
monitoring is critical to ensuring that ballots are counted 
right, that people don't vote twice--all the problems that 
could plague an election. And then, when a verdict is given, if 
it is a positive one, based on the evidence, it further 
legitimizes the outcome.
    So if you could delve further into that election-
observation side of it as well.
    Mr. Day. Thank you, Mr. Chairman.
    As you noted, we have a tremendous partnership with DFID, 
and all of our programs are, of course, in support of the three 
kind of objective areas that Assistant Secretary Nagy 
mentioned.
    Much of that is technical support to INEC. So we have, 
ultimately, three partners: The International Republican 
Institute, the National Democratic Institute for International 
Affairs, as well as IFES, the International Federation for 
Electoral Support. So the technical support to INEC is through 
IFES. And then the International Republican Institute supports 
political party strengthening, encouraging responsive platforms 
to the citizens.
    And then we have a robust program with civil society 
organizations working on activities, everything from get-out-
the-vote campaigns, to the PVTs, voter education. And then, of 
course, there are major issues about misinformation all 
throughout Nigeria, and so a lot of our civil society partners 
will work on many of those issues as well.
    In terms of the election observation mission, there are 
kind of three primary components to that. There is the local 
observers, the local monitors, which are generally Nigerian. 
And that is by far the largest component of this, roughly 
around 3,000 observers. And they will be in, I believe it is 
775 or 774 polling stations all around the country.
    The international observers come from all around the world 
at the invitation of IRI and NDI. Generally, about 40 members 
will be in that delegation, and they will be distributed all 
around the country, roughly around 12 states. They are in 
consultation with INEC and amongst themselves to determine 
where they will actually be deployed, but we can get you 
information about where they ultimately are decided upon. I 
don't believe those decisions have been made yet, but we can 
certainly check on that.
    And then we also have an Embassy observer commission from 
the U.S. Embassy in Nigeria, where there will about 30 or 40 
staffers that will also go out into the country as well.
    So it is a robust observation mission. And you are 
absolutely right, it is critical.
    Mr. Smith. In terms of access to media, it is very often 
the case where there is a state-run media, but especially where 
opposition candidates can't get their views out. Is that 
presenting any problems? It is not the day of election that 
matters only; it is everything that precedes it.
    Mr. Day. You are absolutely correct. Our electoral support 
program has been going since the previous election. So it is 
important to know that these programs didn't start just a 
couple of months ago; they have been going on for months.
    Now, some of the technical items will be coming together 
pretty soon. When we talk about the printing of manuals and the 
actual ballots that IFES is also advising INEC on, those, of 
course, come together in the last several months prior to the 
election. But the political party support, the civil society 
support has been going on for years.
    Mr. Smith. There were reports in The Vanguard that the 
accounts of leading opposition candidate Governor Peter Obi 
have been frozen by the government. There have been reports by 
Premium Times that the top Presidential challenger's sons' 
apartment was raided in Abuja.
    Furthermore, we have received a report and a copy of a memo 
by a Nigerian Embassy targeting a Nigerian human rights lawyer 
for testifying before this committee.
    Is the U.S. concerned of repression against opponents by 
the Nigerian Government? And what are we doing to ensure that 
Nigeria does not violate the rights of citizens who have those 
contrary views?
    Ambassador Nagy. Yes, Mr. Chairman, we are absolutely 
concerned with those activities and those reports.
    And I would like to just make a general comment. When I 
went to Nigeria, one of the things I was specifically looking 
for was the activities of our Embassy, how engaged they were in 
this whole process, how closely they were following the 
elections. And I have to tell you, of all the Embassies I have 
seen during my career, I have never seen one as hyperactive and 
as actively involved in following these events day to day.
    Ambassador Symington deserves commendations for marshaling 
the resources for sending his officers everywhere in Nigeria, 
for maintaining an ongoing active engagement, especially with 
the Middle Belt violence, with dialogue on all side with the 
imams, with the pastors, with the various churches, with the 
groups, with the Nigerian Government.
    While I was there, as I mentioned, I was there just for a 
couple of days, but he set up sessions with me for the leaders 
of both political parties, for the electoral commission, and 
then with a whole group of civil society who would be following 
the elections.
    So, personally, I was so impressed that our mission is so 
engaged to pursue exactly these types of things. Wherever there 
are human rights violations, they will complain about it, they 
will take it to the people involved.
    While I was there, the Osun state run-off had gone on, 
which had not gone off very well because there are reports of 
security forces intimidating the voters. And we went to the 
Foreign Ministry. Ambassador Symington met that right on, 
talked about it. I just have to say that I have been impressed 
with the activity that that mission has displayed.
    Mr. Smith. I appreciate that.
    And final question. The higher the visibility, I think, 
shown by other governments toward this election, the better. I 
am wondering if there is any--and maybe you mentioned it, Mr. 
Day, but--African Union top leaders who might be traveling, 
including observers on election day. And perhaps Secretary 
Pompeo could consider going to send a message that there be a 
free and fair, transparent, and violence-free election.
    Mr. Day. Thank you. I have not seen the makeup of the 
international observation mission yet. I don't know that the 
invitations have been sent out. But we can certainly check, and 
we will keep you posted.
    Ambassador Nagy. And, of course, Mr. Chairman, I don't know 
the Secretary's travel schedule, but I will be happy to pass 
that on.
    Mr. Smith. Please do. I think it would send a very clear 
and a very positive message.
    Ambassador Nagy. Thank you, sir.
    Mr. Smith. Ms. Bass?
    Ms. Bass. Thank you very much, Mr. Chair.
    Nigeria's election commission received generally positive 
reviews of its administration of the 2015 elections. Were there 
areas where further improvements in election administration 
were needed? And if so, have they been addressed?
    Several groups involved in monitoring the pre-election 
environment, including IRI and NDI, have identified challenges 
that could potentially undermine the credibility of upcoming 
elections, including delays in finalizing the legal framework 
for elections. President Buhari recently refused to sign into 
law revisions to the Electoral Act. How might that affect the 
upcoming election?
    Mr. Day. Thank you, Congresswoman.
    In terms of kind of the progress that INEC has made, you 
know, as the Assistant Secretary mentioned, he and I have both 
met with Chairman Yabuku in the last several months. And I 
think our impressions--I certainly can't speak for the 
Ambassador, but my own impressions were that there is 
significant capability there and there is significant political 
will, which I think is absolutely critical to the success of 
these elections and any elections.
    Ms. Bass. Uh-huh.
    Mr. Day. You know, there certainly are significant 
challenges. One of the items that I think we have been 
certainly encouraged at, in kind of watching INEC over the last 
several years, is that they have been responsive to 
recommendations.
    For example, there was an issue in 2015 that continues to 
be an issue in some of the gubernatorial issues that we saw in 
Ekiti and Osun about voter privacy. And we have made those 
recommendations known to INEC, and we have noticed that they 
are changing the configurations of some of the rooms. As well 
as they have banned cell phones in the voting booths, so you 
can't take a picture and then go prove to others that you have 
voted in the proper way.
    Ms. Bass. Uh-huh.
    Mr. Day. And so they have been responsive, and that is 
certainly an encouraging sign.
    That said, there are still tremendous both mechanistic 
challenges as well as administrative challenges and budgetary 
challenges as well. So still challenges remain, without 
question.
    Ms. Bass. You know, I wonder how you ban cell phones. Do 
you search people before they go--you know, so is it just 
something that they encourage people not to have cell phones? 
You don't have to answer that.
    You mentioned a couple of the violence prevention programs, 
and I wanted to know if you can give a little more detail. 
Like, what is the Vote Not Fight and the Stop Violence Against 
Women campaign? Because I believe you said we are supporting 
the programs. I just wondered, what do the programs do?
    Mr. Day. We can get you more details on the actual 
programmatic activities of those. So we will submit those to 
the record.
    Ms. Bass. So I also wanted to know how they are dealing 
with hate speech, and are there any groups monitoring hate 
speech during the campaign period?
    I think it is kind of important for us to look at the issue 
of hate speech in other countries, because we could probably 
learn from them, since hate speech is a problem before our 
elections too, especially considering before the midterm we had 
four acts of domestic terrorism right before our election. 
Maybe there is something that we could learn from our countries 
on hate speech.
    Ambassador Nagy. Yes, the Embassy considers hate speech a 
very important issue, and they are monitoring it actively and 
will challenge it where it comes up.
    Ms. Bass. What do they do?
    Ambassador Nagy. In addition to the--they do it with the 
radio. They do it with press reports. They also do it with the 
amount of--we have a considerable number of local employees at 
the Embassy who follow events around the country. In addition 
to Embassy Abuja, of course, we have Consulate Lagos that also 
does that. And as with any other Embassy, we get a considerable 
amount of reporting from the larger community, from local 
organizations.
    Ms. Bass. So you are describing--will you respond to the 
hate speech?
    Ambassador Nagy. Absolutely. Absolutely.
    Ms. Bass. Okay.
    Ambassador Nagy. Publicly with media letters, with going to 
the Nigerian Government, with actually going to the local 
government.
    Ms. Bass. And the hate speech is not coming from the 
government though.
    Ambassador Nagy. No.
    Ms. Bass. That was a question. It is not.
    Ambassador Nagy. No.
    Ms. Bass. It is coming from the political parties?
    Ambassador Nagy. However, to be fair, I mean, we will see 
where it comes from, because in Nigerian elections sometimes it 
will come from local governments----
    Ms. Bass. Uh-huh.
    Ambassador Nagy [continuing]. Not necessarily the national 
party structure, but from nefarious angles around the country.
    Ms. Bass. And so we denounce it? We make a----
    Ambassador Nagy. Absolutely.
    Ms. Bass [continuing]. Statement denouncing it?
    Ambassador Nagy. Absolutely.
    Ms. Bass. Is that what they do as well?
    Ambassador Nagy. Absolutely they will denounce it.
    Ms. Bass. Maybe we could learn. This man went through an 
awful lot.
    I am speaking about your election. You had to deal with 
that.
    Ambassador Nagy. Representative Bass, may I also talk--you 
asked a question about the failure of the President to sign the 
new electoral law.
    Ms. Bass. Yes.
    Ambassador Nagy. The civil societies were very disappointed 
in that. The President mentioned that doing it this close to 
the elections might disrupt the elections. I am not giving that 
credibility or noncredibility; I am just telling you what he 
said.
    The good news is that the electoral commission has been 
acting as if the new law has actually come into effect. So our 
Embassy's analysis is that not signing the law is not going to 
deleteriously affect the elections. So it will not have a 
negative effect on the election. It would have been nice if it 
had been signed.
    Ms. Bass. Right. Right.
    So what are your greatest concerns with respect to the 
upcoming elections?
    Ambassador Nagy. I believe that the greatest concern is 
violence, number one. Number two is the use of security forces 
for one side or the other.
    Ms. Bass. Uh-huh.
    Ambassador Nagy. Not allowing voters to express their 
desire. As I mentioned in the first----
    Ms. Bass. But do you think, though, that the infrastructure 
for the election is okay? I understand what you are just 
describing, but in terms of it being a credible election, 
assuming that you don't have that----
    Ambassador Nagy. We believe the infrastructure is fine. It 
is the human actors; if there is going to be any problem, it is 
going to come from that side.
    I mean, I have followed Nigerian election since 1993. There 
are always some angles which are out of what we would consider 
the norm. The 2015 ones were considerably better than previous 
ones. Everybody is saying that, at a minimum, they would expect 
this round of elections to meet the standard set by 2015.
    Ms. Bass. Uh-huh.
    Ambassador Nagy. One of the considerations we need to think 
about is that in 2015 it was not as competitive as it is this 
year, because in 2015 there was the belief that there was such 
a negative reaction to President Jonathan that now President 
Buhari would win.
    This time, when I was there--and I talked to a large number 
of people--there is absolutely no certainty. As we have seen, 
there have been defections from one party to the other, back to 
the other party, back again. And I think we can expect that to 
continue going into the electoral period.
    Ms. Bass. So how would you describe that donors are 
coordinating their efforts to help Nigeria facilitate a free 
election?
    And I am wondering about our support as well. Do we have 
enough support to NED, National Endowment for Democracy, that 
then supports NDI and IRI?
    Mr. Day. There is significant coordination at the 
grassroots level, of course, between the various partners of 
USAID and the National Endowment for Democracy.
    In terms of supports to them, this is the largest electoral 
support program that USAID has on the continent for 2018. So it 
is----
    Ms. Bass. For 2019?
    Mr. Day. For 2019. Excuse me. So this is a robust effort. 
And it has been going on--as I mentioned to the chairman, it 
has been going on for quite some time. So it is not just 
something that has just come up in the last few questions.
    Ms. Bass. How do you compare it to what we are doing in 
DRC, which we talked about yesterday?
    Mr. Day. Depending on how you measure it, this is----
    Ms. Bass. I mean, meaning our support.
    Mr. Day. In terms of our support? Depending on how you 
measure it, whether it is the size of the observation mission, 
the number of local observers, et cetera, or funding levels, it 
is comparable, but I do believe that the Nigeria support 
program is larger.
    Ambassador Nagy. Because, Representative Bass, in Nigeria, 
we are talking about, I think, 85 million voters.
    Ms. Bass. Yeah.
    Ambassador Nagy. I mean, my gosh.
    Ms. Bass. I know. But I just think of the----
    Ambassador Nagy. Yeah. Wow.
    Ms. Bass [continuing]. Instability in DRC. You know what I 
mean?
    Ambassador Nagy. And you saw the news last night from DRC 
and the destruction of the voting machines and----
    Ms. Bass. Yes. Not a good sign.
    Ambassador, final question. I want to know what your 
reaction is to a major security partner using the words of our 
Commander in Chief to endorse violence against unarmed 
civilians. Do you know what I am talking about?
    Ambassador Nagy. No, ma'am.
    Ms. Bass. The statements that were made about the caravans 
coming over the border. Essentially, the President was saying 
that, if people threw rocks, then he would consider that like, 
you know, a gun and that our military could fire back. And then 
there was a direct response in Nigeria to that which was 
basically cosigning that.
    And so, you know, the question is if you are concerned that 
such rhetoric will make it even harder to get our security 
partners to exercise restraint when dealing with unarmed 
civilians.
    Ambassador Nagy. I am certain that that was not the 
intention.
    Ms. Bass. No, I know it is not the intention. No, no, no. 
Of course it wasn't the intention.
    Ambassador Nagy. Yes. I----
    Ms. Bass. My question and concern is, when you are out 
there around the world and when comments or tweets or whatever 
are made in the United States, then how does that impact you 
trying to do your work or our Embassies trying to do their work 
calling for restraint?
    Ambassador Nagy. Well, the Embassies will just not use that 
type of expressions or will say not to tie that to the two 
sides.
    Ms. Bass. Okay. Again, I just want to make sure you are 
understanding me. I would not expect anybody----
    Ambassador Nagy. Yeah.
    Ms. Bass [continuing]. In the State Department to use that 
kind of rhetoric. My question is, when people hear that 
rhetoric being used here, that was clearly used as an excuse in 
Nigeria to then harm civilians.
    Ambassador Nagy. Right. Our Embassies would in no way 
support that. Absolutely.
    Ms. Bass. I yield back.
    Mr. Smith. Mr. Garrett?
    Mr. Garrett. Thank you, Mr. Chairman.
    I am going to go off on a tangent for a moment, because it 
is my understanding--and this is totally unrelated--that Turkey 
has now bombed targets inside of Iraq. And I want them to know 
that somebody in this country is watching. Like, today, as we 
sit here, it is happening. And that is just intolerable. And I 
hope that they take notice of the fact that we have taken 
notice.
    Back on the subject matter at hand, has any provision been 
made to ensure ballot access for displaced peoples in the 
upcoming election?
    Ambassador Nagy. Representative, that is one of the 
things--I mentioned that was one of our concerns, was the 
ability to have elections amongst all the displaced people. So, 
yes, absolutely, that is a concern, and that is an issue that 
the Embassy is following.
    Mr. Garrett. But I believe your exact reference was to 
IDPs, correct?
    Ambassador Nagy. Both----
    Mr. Garrett. And we are on the same team here, right? I 
mean, I think----
    Ambassador Nagy. Yeah.
    Mr. Garrett [continuing]. I want to advance the same agenda 
you do, which is free and fair elections in Nigeria----
    Ambassador Nagy. Absolutely.
    Mr. Garrett [continuing]. And a Nigeria where people are 
tolerant of one another.
    Ambassador Nagy. Yeah.
    Mr. Garrett. So I am grateful that the answer is yes. But 
do you have any idea what percentage of the people who are 
refugees attempting to cross the Mediterranean right now are 
Nigerian or from the Lake Chad region?
    Ambassador Nagy. I am sorry, I don't. We can check on that 
and get back to you.
    Mr. Garrett. I don't want you to have to do that. But would 
you concede--and, again, we are on the same team here.
    Ambassador Nagy. Yeah.
    Mr. Garrett. Would you concede that there is a significant 
number of displaced people from the Lake Chad region in Nigeria 
who are moving north and even trying to----
    Ambassador Nagy. I would suspect yes.
    Mr. Garrett. And so these people, essentially--and, again, 
I am on your team here.
    Ambassador Nagy. Yeah.
    Mr. Garrett. It is by training as a prosecutor, so I want 
you to know that this is not adversarial. But these people 
aren't going to have an opportunity to vote, right?
    Ambassador Nagy. No.
    Mr. Garrett. They are voiceless. And if we want to create a 
Nigeria where people can live side by side regardless of 
ethnicity or religious differences, these people won't have a 
say in shaping a future if they ever choose to return, right? I 
mean, it is----
    Ambassador Nagy. That would be problematic. I did want to 
say that, with some countries--and I am not sure if Nigeria is 
one of them--that they will allow voting at their Embassies for 
their expatriate populations. But like I said, I am not sure 
what the rules are in Nigeria.
    Mr. Garrett. Well, that might be something that I would ask 
you guys to look into, right? I think that is a great idea. We 
know, you know, the ports of debarkation of a lot of these 
refugees. And even if a handful of displaced Nigerians who were 
not internally displaced were able to go to an Embassy or 
consulate and vote, that would be awesome, right?
    Do we know of any specific efforts by Fulani militants or 
Boko Haram to disrupt the election and the electoral process?
    Ambassador Nagy. No specific information, but I am sure 
that that would be an aspirational goal of theirs.
    Mr. Garrett. Now I am going to walk the dog backwards a 
little bit. Do we know any nation-states or entities contained 
within definable nation-states that might be responsible for 
funding of Fulani militants or Boko Haram?
    Ambassador Nagy. No. I don't.
    Mr. Garrett. Okay.
    Ambassador Nagy. I absolutely do not.
    Mr. Garrett. Yeah. And, again, that is probably out beyond 
your purview, but you get it. I mean, all this stuff sort of 
lays on top of----
    Ambassador Nagy. Not nation-states. Absolutely not.
    Mr. Garrett. So there are no Middle Eastern countries that 
you can speak to that we can track funding Boko Haram or 
Fulani?
    Ambassador Nagy. No.
    Mr. Garrett. Okay.
    And digging a little bit deeper down into stuff that 
matters to the election but not directly election-related, has 
Boko Haram pledged allegiance to ISIS?
    Ambassador Nagy. There are two parts of Boko Haram. They 
have both pledged allegiance to ISIS, but when Boko Haram broke 
into two in 2016, ISIS went with the break-off unit that we now 
call ISIS West Africa. The original Boko Haram has been kind of 
pushed aside by ISIS, and they are the least effective of the 
two branches.
    Mr. Garrett. Right. And I want to tell you that I ask 
questions sometimes that I do know the answer to, not to make 
you look bad but to make sure that somewhere there is a video 
record of the fact that somebody in this country is tracking 
this.
    And, tragically, the word ``ISIS'' tends to move U.S. 
foreign policy. And when you have things like Boko Haram acting 
as a bad actor, not just in interfering with elections but 
interfering with life itself, that if we can tag them with 
their ISIS allies, maybe the global community will feel more 
compelled to act.
    Which dovetails with my next question, which is rather 
informal. But I believe it was about 4 years ago that President 
and Mrs. Obama took part in the Bring Back Our Girls hashtag 
campaign, right?
    Ambassador Nagy. Uh-huh.
    Mr. Garrett. But this last April would have been 4 years. 
What happened to it? And I know it is not within your official 
responsibility. What is going on there?
    Ambassador Nagy. I am not sure how many of the girls have 
been retrieved.
    Do you know?
    Mr. Day. It is my understanding, but through just reading 
reports, that the majority, if not all, of those girls have 
been returned through various means. However, there have been 
other kidnappings. And so there are numerous issues throughout 
the northeast and Middle Belt, of course.
    Mr. Garrett. One of us is right, and one of us is wrong. 
And I am not saying this because I think you are wrong. I could 
be wrong. Right into the camera. But my understanding is that 
about half the girls have still not been retrieved. And I guess 
the global community has sort of moved on to the next big 
hashtag.
    That is in no way, shape, or form to impugn anyone. I thank 
Mrs. and President Obama for their activity to that end. But I 
won't forget about these human beings who are living, in my 
understanding, in many cases in forced marriages, who have been 
subject to violence to include rape.
    And, again, the reason sometimes I ask questions I know the 
answer to is if somebody hopefully can metaphorically weaponize 
this video to say the United States is still freaking watching 
and that we won't tolerate regimes that tolerate entities that 
do this to their subjects, to human beings.
    Ambassador Nagy. Also, Representative, may I add, there was 
a second kidnapping from Dapchi. And all of those girls have 
been returned, with the sole exception of one.
    Mr. Garrett. Super. Thank you. And, again, I am on the same 
team as you guys. I am trying to work within my 
responsibilities in this branch of government while you do 
yours from yours.
    The other thing that strikes me as sort of tragic is there 
is a debate in the global news community on the number of 
people killed in the herder-farmer violence and the Fulani 
militant movements, Boko Haram movements, and there is a debate 
as to the proportion of those killed. So I believe someone 
affiliated with the administration said 60,000 Christians have 
been killed by Muslim radicals.
    Now, I know that the good guys and the bad guys weaponize 
information for propaganda purposes. Do we have a number on the 
people who have been killed? And do you have any idea as to the 
proportion of who has been killed? I know that both sides have 
lost people, and every human life has value. But what sort of 
numbers do you have on that?
    Ambassador Nagy. The best number I can give you, this year, 
up to now, has been about 1,300 directly in the herder-farmer 
violence. I do not have the proportion breakout as to who was 
who.
    Mr. Garrett. I am sorry. This year, 1,500?
    Ambassador Nagy. Thirteen hundred this year.
    Mr. Garrett. Okay.
    Ambassador Nagy. But that is just the Middle Belt violence. 
That is not anything related to Boko Haram or anything like 
that. That is just that. And, again, those numbers, I also 
understand, are very problematic.
    Mr. Garrett. Right.
    Ambassador Nagy. Because----
    Mr. Garrett. Well, I am asking you for your best guess, 
knowing that at least nobody that I can find knows the real 
answer.
    Ambassador Nagy. Yeah. Exactly. That is the best I can give 
you. And like I said, we can get a breakout as to who is who. 
But my view of----
    Mr. Garrett. Has the violence and bloodshed 
disproportionately affected the Christians in the south? 
Because my understanding is it has, but there are literally 
arguments from AFP and other legitimate news outlets saying we 
don't really know who the dead people are. Has it been 
disproportionately levied against one community by another, to 
your knowledge?
    Ambassador Nagy. To my knowledge, I am not certain. I would 
guess that disproportionately there have been more farmers 
killed than herders.
    Mr. Garrett. Okay.
    Ambassador Nagy. That is from my experience.
    Mr. Garrett. Again, I am not--this isn't----
    Ambassador Nagy. That is my experience, not my direct 
knowledge.
    Mr. Garrett. Right. Sure.
    Mr. Day, anything to flesh that out?
    And I know there are no wrong answers. I am trying to 
gather information, having already tried to gather information, 
and bounce what I have heard off of what you guys got.
    Mr. Day. My impressions are the same.
    Mr. Garrett. Okay.
    When we shape policy--and, again, the vast bulk of American 
foreign policy is going to come out of the executive branch, 
rightly so. But when we shape policy, we have to shape it with 
the right information, right?
    And this is not me finger-wagging at you guys.
    And I get frustrated because this body, good Members like 
Ms. Bass, who has left now, and Mr. Smith, if we can't get the 
right information, we can't formulate the right legislative 
policy to support the executive implementation of foreign 
policy.
    So we could do this all day long--and, again, I am on your 
team. This is not adversarial. We could do this all day long in 
Nigeria. We can work our way up into South Sudan and Sudan, and 
then we can move up across the Sinai into Syria and Iraq and go 
over to Burma, and it is just--so the ignorance is literally, 
if you live in Nigeria or any number of places, deadly. So, 
just venting.
    I thank you guys immensely.
    And thank you, Mr. Chairman.
    Mr. Smith. Thank you, Mr. Garrett.
    Let me just ask, if I could, Mr. Day, in the area of 
conflict mitigation and the money that we spend there, you 
know, I have counted up the number of tolerance projects, 18 of 
them, 4 building bridges, a number of engaging communities in 
peace in Nigeria, building bridges between farmers and herders.
    And I am wondering if you could speak to the success of 
that. Again, how well-included are clergy, both Muslim and 
Christian, in those efforts? We know that in South Sudan the 
clergy is extraordinarily involved with conflict resolution and 
building bridges. And if you could just speak to that here.
    And what is the impact this might have on this election? I 
mean, these have been going on for a while. It is a tremendous 
initiative. Is it having results? If you could speak to it.
    I noticed one of the costs was $4.8 million from 2012 to 
2018. So, you know, you didn't just start doing it; it has been 
ongoing.
    But if you could speak to its success and the impact on the 
election too.
    Mr. Day. Sure. Thank you, Mr. Chairman.
    You know, in certain states in Nigeria, particularly Borno 
state in northeast Nigeria, it is extremely difficult for USAID 
programs to operate. And so many of our programs in northeast 
Nigeria are going to be based on humanitarian assistance. There 
are acute humanitarian assistance needs, particularly in Borno 
state.
    We have more activity, of course, in the Middle Belt. And 
we have seen, where we do have conflict mitigation and 
antiviolence programs, we have seen a decrease in violence. So 
that has been encouraging.
    So gaining access to the areas in which we need to be 
working is critical. In some places it is just very difficult 
to get in there.
    We continue to see farmer-herder conflict. The timing of 
these elections are during a time in which we very well may see 
additional herder-farmer conflict because of the movement. So 
it is something that we are continuing to watch and monitor.
    There is also intercommunal fighting as well. So that is 
another issue that is something that is incredibly important.
    But we have a wide range of programs for dispute resolution 
and alternative dispute mechanisms. But where we have been able 
to operate, we have seen significant success.
    Mr. Smith. Generally speaking, are the clergy and imams 
being brought in for a united front, particularly in the final 
month of the election, the final 2 weeks to the election?
    Ambassador Nagy. No, absolutely. And I wanted to point--
there have been just a couple of extraordinary examples. For 
example, the imam who saved hundreds of Christian villagers 
when the village was attacked by Muslim Fulani.
    The Embassy keeps just a constant outreach. Again, I would 
just like to underline that that is one mission that stays 
constantly on the ground. They are sending the Ambassador, the 
Deputy Chief of Mission to the area, and they engage with 
everybody, and especially motivating the clergy of both sides, 
because they are the key, they are the ones that people 
respect.
    Mr. Smith. Let me just ask very briefly, yesterday, the 
President signed the 5-year extension of PEPFAR. And for the 
record, I am the prime sponsor of that bill and was very happy 
to do so. I was here when Henry Hyde sat in this chair and led 
the effort to do the original President's Emergency Plan for 
AIDS Relief, which was, I think, an extraordinary global health 
initiative unmatched by anything that this country has ever 
done.
    Sixteen million people have been saved, 2 million children 
who otherwise would have been HIV positive from their moms. 
That has not happened. And then the prevention side, the ARVs, 
for those with the positive test, have been extraordinarily 
effective. It even makes them less likely to transmit the 
disease because it reduces the viral loads.
    But one of the things that this committee has done, we have 
had also hearings on Chemonics and, you know, the supply chain 
and lateness. And I am wondering if you--Nigeria is one of the 
few countries where the U.S. Government manages the entire 
health system supply chain for ARVs. And I am wondering how 
that is working in Nigeria.
    We have been concerned in the past that if your ARV is 
late--or any other medicine, frankly, but that too--your 
chances of being sicker escalate.
    Mr. Day. Mr. Chairman, it is my understanding that the 
programs we have for combating HIV and AIDS in Nigeria are 
operating as planned. However--and I haven't been made aware of 
any major issues in Nigeria--it still remains a highly complex 
environment in which to operate. But we will look into any 
major issues, and we will certainly get back to you.
    Mr. Smith. Okay. I appreciate that.
    Having just been with a good friend and colleague, Karen 
Bass, in South Sudan--we were just in Ethiopia, as well, on 
another trip--one of the things that was so appalling in South 
Sudan was the theft of food and medicine, but particularly 
food, intended for the most disadvantaged. And it was 
government troops and others that took it. And I know you know 
very well, both of you, how disappointing that is. And a lot of 
mechanisms have been put into place to try to mitigate that 
thievery, which takes the food literally out of the hands of 
starving people.
    Let me just ask, finally, if you could, maybe speak to, 
again, the launch today, some of the highlights, if you would 
like. Or you could get back to us for the record, you know. 
And, without objection, we will include, you know, major 
portions, if not the whole thing, into this record. Because I 
think, you know, today is a momentous day, when you make such a 
huge announcement.
    And, Mr. Garrett, do you have anything else?
    And would you like to speak to it or just submit it for the 
record?
    Ambassador Nagy. I would like to go back to you for the 
record later. The one thing I did say this morning is that we 
had an engagement session afterwards, and I said that it is the 
type of policy that I have been waiting for for a long time. 
But I will be very happy to get back with the details, sir.
    Mr. Smith. That would be great.
    I do have one final question. I was the House sponsor of 
the Global Magnitsky Act. We ended up putting it into the NDAA.
    The actual idea came from a bill I did in 2004 called the 
Belarus Democracy Act, holding people to account by visa denial 
and disallowing their ability to be involved with financial 
transactions. That then became the Magnitsky Act. And Dr. Bill 
Browder, who has testified here several times before this 
committee, really championed that so effectively and then said 
it ought to be global. It is global.
    And I am wondering, especially with this election coming 
up, if the word could at least be out there that if you commit 
violence--and that goes before or after any election--that you 
are not going to get a visa to come here, we are going to have 
names, and you are not going to be able to do business here. 
And our hope would be that the EU--the way they do it with the 
Belarus Democracy Act.
    I have met with Lukashenko a number of times, the man that 
runs Belarus, and he is none too pleased with that act because 
he and so many people were affected--it is now waived because 
they have let out the political prisoners and there has been 
some reform. But it seems to me, until there is a penalty 
phase, there are some people who will never get it.
    And so hopefully you will have that as something to try to, 
again, chill any violence that might be committed, atrocities 
and the like, against people in this upcoming election.
    Ambassador Nagy. As a matter of fact, Mr. Chairman, yes, 
that is one of our points in discussing these elections, is 
that we will not hesitate to apply that to those committing 
human rights violation, interfering with the democratic 
process, and a list of other things. And that is a very, very 
effective tool. Thank you very much, sir.
    Mr. Smith. Thank you. And thank you for your willingness to 
use it, because if it is, obviously, a penalty that stays on 
the shelf and collects dust, then it is not only disrespected, 
it is laughed at. So my hope would be that there would be a 
robust use of it.
    Again, thank you. We are looking forward to seeing you next 
year. And without any--Mr. Garrett, anything?
    This hearing is adjourned, and I thank you.
    [Whereupon, at 3:07 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
